<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2011 budget 
request for programs within the subcommittee's jurisdiction.]

    Prepared Statement of the Marine Conservation Biology Institute

    Mr. Chairman and Members of the Subcommittee: Marine Conservation 
Biology Institute, based in Bellevue, WA, is a national, nonprofit 
environmental organization whose mission is to advance the science of 
marine conservation biology and protect ocean ecosystems. We advocate 
for effective ocean policy and adequate appropriations for marine 
programs that focus on understanding and conserving marine ecosystems, 
habitats and species. MCBI supports the United States Coast Guard in 
their efforts to reach their goals in providing maritime safety, 
security, mobility, national defense, and protection of natural 
resources.
    I wish to thank the members of the Homeland Security Appropriations 
Subcommittee for the opportunity to submit written testimony on the 
fiscal year 2011 budget regarding appropriations for the United States 
Coast Guard (USCG). The USCG is a multi-mission, maritime agency 
ensuring the safety, security, and conservation of the Nation's 
territorial waters. The fiscal year 2011 President's request has 
decreased USCG's overall budget by over $340 million, including a 
decrease of $3.5 million for marine environmental protection. Without 
adequate funding, the Coast Guard will flounder in its mission and the 
maritime environment will be at risk of further degradation. MCBI 
recommends reinstating the fiscal year 2010 enacted USCG funding level 
of $10.4 billion, to include an additional $2 million for the USCG to 
play its part in preventing marine debris and aiding in its removal.

                         MARINE DEBRIS PROGRAM

    Marine debris has become one of the most widespread pollution 
problems affecting the world's oceans and waterways. As highlighted by 
the Great Pacific Garbage Patch in the north Pacific gyre, and the 
recently identified garbage patch in the Atlantic, marine debris is a 
growing problem that is manifesting itself in all U.S. waters, 
including Hawaii, Alaska, and the Caribbean. Marine debris fouls 
beaches and marine ecosystems; kills coral reefs; causes death to 
marine mammals, seabirds, and sea turtles by entanglement and 
ingestion; transports non-native and invasive species to marine 
ecosystems; and creates navigation safety hazards by fouling engine 
propellers. Research has proven that debris has serious effects on the 
marine environment, wildlife, the economy, and human health and safety. 
Some of the most common types of marine debris are discarded or lost 
fishing lines and nets, household plastics such as disposable lighters, 
six-pack rings, plastic bags, and Styrofoam pellets. The number of 
marine debris related entanglement deaths of endangered and threatened 
seals, sea turtles, and seabirds continues to grow. Entanglement in 
debris is major cause of death for Hawaiian monk seals (population 
estimate is less than 1,200 individuals).
    The United States Coast Guard (USCG) plays a crucial role combating 
marine debris by monitoring and enforcing compliance with MARPOL Annex 
V and the Act to Prevent Pollution from Ships. Under this authority, 
USCG monitors discharge of waste from ships and oversees port waste 
receptor facilities. In addition, USCG provides critical support and 
leadership for a variety of anti-marine debris activities. For example, 
USCG has partnered primarily with the National Oceanic and Atmospheric 
Administration (NOAA), starting in 1998, to remove an estimated 600 
metric tons (mt) of marine debris (mostly derelict fishing gear) from 
the Northwest Hawaiian Islands (NWHI) where marine debris continues to 
kill endangered Hawaiian monk seals and seabirds. As of 2006, NOAA has 
shifted marine debris removal in the NWHI to a ``maintenance mode,'' 
intended to keep up with new debris accumulation. In fiscal year 2006, 
NOAA and USCG removed an estimated 40 mt of debris. Yet, the annual 
accumulation rate is estimated at 52 mt of marine debris. Therefore, 
``maintenance'' funding is not keeping up with the problem, and marine 
debris continues to be a perpetual threat to the endangered Hawaiian 
monk seal and seabirds in Papahanaumokuakea Marine National Monument.
    To combat marine debris, the Marine Debris Research, Prevention and 
Reduction Act was enacted in 2006. The act established a national 
program led by NOAA and the USCG to identify, assess, reduce and 
prevent marine debris and its effect on the marine environment. The act 
authorizes $10 million annually for NOAA's Marine Debris Program and $2 
million for the USCG's program. However, NOAA has been level funded at 
$4 million since 2008; and the USCG has never requested nor received 
any direct funding for its marine debris efforts.
    As the Nation continues to deal with economic challenges, MCBI 
recognizes that allocating new funds for projects may be difficult. 
However, we encourage the subcommittee to (minimally) reinstate USGS 
funding levels to fiscal year 2010 enacted levels to maintain the 
service's operating capabilities, and include an additional $2 million 
for the USCG to meet its responsibilities under the Marine Debris Act.
    Additional monies are needed to enhance the ability of USGC to 
maintain support to current removal projects; develop best management 
practices; reduce derelict fishing gear; and conduct education and 
outreach measures.
    In summary, MCBI respectfully requests that the subcommittee 
augment the United States Coast Guard funding to support the critical 
role they play fighting marine debris.
                                 ______
                                 

   Prepared Statement of the National Association for Public Health 
                   Statistics and Information Systems

    The National Association for Public Health Statistics and 
Information Systems (NAPHSIS) welcomes the opportunity to provide this 
written statement for the public record as the Homeland Security 
Subcommittee prepares its fiscal year 2011 appropriations legislation. 
NAPHSIS represents the 57 vital records jurisdictions that collect, 
process, and issue birth and death records in the United States and its 
territories, including the 50 States, New York City, the District of 
Columbia, and the five territories. NAPHSIS coordinates the activities 
of the vital records jurisdictions among the jurisdictions and with 
Federal agencies by developing standards, promoting consistent 
policies, working with Federal partners, and providing technical 
assistance to the jurisdictions.
    The ``near miss'' of Flight 253 on Christmas Day reminds us that we 
must remain vigilant in protecting our Nation from terrorist attacks. 
In 2005, Congress passed the REAL ID Act in response to the 9/11 
Commission's recommendations that the Federal Government ensure a 
person ``is who they claim to be'' when applying for an official ID, 
yet 5 years later its implementation remains stalled due to strained 
State budgets and a lack of Federal investment. NAPHSIS respectfully 
requests that Congress provide the Federal Emergency Management Agency 
(FEMA) $100 million over a period of 3-5 years to modernize the vital 
records infrastructure in support of REAL ID through grants to States.

  PREVENTING FRAUD, IDENTITY THEFT, AND TERRORISM THROUGH VERIFICATION

    Prior to the terrorist attacks on the United States on September 
11, 2001, all but one of the terrorist hijackers acquired some form of 
identification document, some by fraud, and used these forms of 
identification to assist them in boarding commercial flights, renting 
cars, and other necessary activities leading up to the attacks. In its 
final report, the 9/11 Commission recommended implementing more secure 
sources of identification, stating that ``Federal Government should set 
standards for the issuance of birth certificates and sources of 
identification, such as driver's licenses. Fraud in identification 
documents is no longer just a problem of theft. At many entry points to 
vulnerable facilities, including gates for boarding aircraft, sources 
of identification are the last opportunity to ensure that people are 
who they say they are and to check whether they are terrorists.'' \1\
---------------------------------------------------------------------------
    \1\ The 9/11 Commission Report, Final Report of the National 
Commission on Terrorist Attacks upon the United States, July 2004, p. 
390.
---------------------------------------------------------------------------
    Heeding the recommendations of the 9/11 Commission, Congress 
enacted the REAL ID Act in May 2005. Among other provisions, the REAL 
ID Act and its corresponding regulations (6 CFR Part 37) require that 
applicants for a driver's license present their birth certificate to 
the motor vehicle agency to validate their U.S. citizenship and their 
date of birth, and that birth certificates must be verified by the 
State. Sec. 37.13 of the identification standards regulations 
recommends that States through their departments of motor vehicles 
(DMV) should use the Electronic Verification of Vital Events (EVVE) 
system, operated by NAPHSIS, to verify birth certificates presented by 
applicants.
    EVVE is an online system that verifies birth certificate 
information. It provides authorized users at participating agencies 
with a single interface to quickly, reliably, and securely validate 
birth and death information at any jurisdiction in the country. In so 
doing, no personal information is divulged to the person verifying 
information--EVVE simply relays a message that there was or was not a 
match with the birth and death records maintained by the State, city, 
or territory.

                 VERIFICATION NEEDED NOW MORE THAN EVER

    Many Federal and State agencies rely on birth certificates for 
proof of age, proof of citizenship, identification for employment 
purposes, to issue benefits or other documents (e.g. driver's licenses, 
Social Security cards, and passports) and to assist in determining 
eligibility for public programs or benefits (e.g., Medicaid). 
Unfortunately, there are cases where individuals have obtained birth 
certificates of deceased persons and assumed their identity, created 
fraudulent birth certificates, and altered the information on a birth 
certificate, as documented in a Department of Health and Human Services 
Office of Inspector General Report of 2000.\2\
---------------------------------------------------------------------------
    \2\ Department of Health and Human Services, Office of Inspector 
General, Birth Certificate Fraud, Sept. 2009 (OEI-07-99-00570).
---------------------------------------------------------------------------
    Most recently, the GAO documented several cases in which 
investigators created fraudulent birth certificates and were able to 
obtain passports based upon the fraudulent records because the passport 
office did not verify the birth certificate information.\3\ As a 
result, the Passport Office's Fraud Prevention Managers commenced using 
the EVVE system in March 2009 for birth verifications. In their first 6 
weeks of use, there were two instances where the Fraud Prevention 
Mangers used the EVVE system to electronically verify the birth 
certificates, and EVVE returned a ``no match.'' Upon further follow up 
with the vital records offices that ``issued'' the birth certificates 
it was determined that indeed the birth certificates presented with 
those passport applications were fraudulent.
---------------------------------------------------------------------------
    \3\ Government Accountability Office, Department of State: 
Undercover Tests Reveal Significant Vulnerabilities in State's Passport 
Issuance Process, Mar. 2009 (GAO-09-447).
---------------------------------------------------------------------------
            STATES NEED FEDERAL SUPPORT TO IMPLEMENT REAL ID

    EVVE is currently installed in 19 vital records jurisdictions and 
is used by State DMVs and Medicaid Offices, the Social Security 
Administration, the Office of Personnel Management, and the Department 
of State Office of Fraud Prevention Programs in select jurisdictions. 
Users of EVVE are enthusiastic about the system, citing its capacity 
for:
  --Providing protection against the potential use of birth 
        certificates for fraudulent activities.
  --Improving customer service by facilitating rapid access to accurate 
        and verifiable vital record data in real-time.
  --Safeguarding the confidentiality of birth and death data.
  --Offering a secure mechanism for communication between agencies and 
        vital records offices via the Internet.
  --Easily integrating with current legacy systems that the Federal or 
        State agencies may already be using, and for serving as a user-
        friendly interface for agencies that seek a stand-alone query 
        system.
    NAPHSIS is working on further upgrades to the EVVE system to meet 
the REAL ID requirements and to ensure that EVVE is installed in all 57 
jurisdictions by May 2011. NAPHSIS is also in the process of procuring 
a data analysis and quality control tool that all jurisdictions can 
utilize to analyze their EVVE databases for anomalies, inconsistencies, 
accuracy, and completeness.
    Despite EVVE's security, speed, and ease of use, the system is only 
as good as the underlying data infrastructure upon which it relies. 
Digitizing paper-based birth and death records, then cleaning and 
linking those records, will provide for secure, reliable, real-time 
identity verification using EVVE. Specifically,
  --The majority of the 57 vital records jurisdictions have electronic 
        birth records that extend back more than seven decades. To 
        recognize EVVE's full potential to verify birth certificates, 
        100 percent of jurisdictions should have their records in 
        electronic form.
  --There are cases where an individual has assumed a false identity by 
        obtaining a birth certificate of a person who has died. 
        Therefore, it is also important that all jurisdictions' death 
        and birth records be linked to flag individuals who are 
        deceased and identify fraudulent birth documentation.

   RECOMMENDATION ACTION: INVEST IN INFRASTRUCTURE TO FACILITATE ID 
                              VERIFICATION

    The jurisdictions' efforts to digitize, clean, and link vital 
records have been hindered by State budget shortfalls. In short, the 
jurisdictions need the Federal Government's help to complete building a 
secure data infrastructure and support identity verification required 
by REAL ID. Under the current authority established through REAL ID, we 
ask that Congress provide $100 million to FEMA to support a new grants-
to-States program for the purpose of modernizing vital records. 
Specifically, these funds would be used by vital records jurisdictions 
to digitize their birth records back to 1945, to clean these data to 
support electronic queries, and link birth and death records. We 
recommend the funding be appropriated over time according to one of two 
schedules:
  --Option 1.--$33 million per year over 3 years. This option would 
        provide roughly $580,000 in fiscal year 2011 to each vital 
        records jurisdiction, on average.
  --Option 2.--$20 million per year over 5 years, providing roughly 
        $350,000 in fiscal year 2011 to each vital records 
        jurisdiction, on average. The vital records modernization would 
        progress more slowly than under Option 1, but the funding would 
        nevertheless significantly enhance the ability of States and 
        territories to support the goals of REAL ID.
    As Congressman Bernie Thomson addressed the President earlier this 
year, we need to ``ensure we have the best infrastructure in place to 
counter the threat of terror.'' We feel strongly that an investment of 
$100 million is a small price to pay to strengthen Americans' safety 
and security by accurately, efficiently, and securely verifying birth 
data on the 245 million driver's licenses issued annually. Five years 
after REAL ID's enactment, isn't it time to implement the 9/11 
Commission's recommendations and invest in the goals of REAL ID and 
identity verification?
    NAPHSIS appreciates the opportunity to submit this statement for 
the record and looks forward to working with the subcommittee.
                                 ______
                                 

  Prepared Statement of the National Emergency Management Association

                              INTRODUCTION

    Thank you Chairman Byrd, Ranking Member Voinovich, and Members of 
the Committee for the opportunity to submit this statement for the 
record regarding the fiscal year 2011 budget for the Department of 
Homeland Security (DHS).
    As President of the National Emergency Management Association 
(NEMA) I represent the emergency management directors of all 50 States, 
territories, and the District of Columbia. Members of NEMA are 
responsible to the Governors for myriad responsibilities including 
emergency preparedness, homeland security, mitigation, response, and 
recovery activities for natural or terrorism-related disasters.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    The highest priority for NEMA within the President's request is 
funding for the Emergency Management Performance Grants (EMPG). This 
program has existed since the 1950s in acknowledgement of the Federal 
interest in creating and maintaining a strong emergency management 
system at the State and local level. EMPG assists State and local 
governments in managing a variety of disasters and hazards providing 
the only source of Federal assistance to State and local government for 
all-hazards emergency management capacity building.
    Grantees utilize EMPG funds for personnel, planning, training, 
exercises, warning systems, public outreach, and other essential 
functions in establishing effective preparedness, mitigation, response, 
and recovery. This program is of considerable economic value to the 
Federal Government as all Federal funds are matched 50-50 by State and 
local governments. Such a matching requirement increases accountability 
and supplements the impact of valuable Federal dollars.
    While the President's request of $345 million marks a significant 
improvement in recognizing the criticality of this program, the amount 
remains far short of the national requirement. According to NEMA's 2010 
Biennial Survey of State emergency management agencies, the total need 
for EMPG funding next year is actually $530 million. The difference 
between the amount requested by the Administration and the results of 
our survey represents the shortfall needed to fund existing 
jurisdictions and establish emergency management programs in eligible 
jurisdictions not currently able to be included. We appreciate the 
resource constrained environment, but when compared to other grant 
programs, the 50-50 match allows EMPG to stand alone as a worthwhile 
investment of Federal funds.

                    HOMELAND SECURITY GRANT PROGRAM

    The Homeland Security Grant Program (HSGP) provides funds to build 
capabilities at the State and local levels and to implement the goals 
and objectives included in State homeland security strategies and 
initiatives in the State Preparedness Report. Funding amounts must 
remain at pre-consolidation levels, and these grants must be used in 
support of building an all-hazard capability. We urge the Committee to 
provide States greater flexibility in use of homeland security funds 
for all-hazards activities. Such flexibility allows the grant funding 
to be utilized by each State according to need, existing resources, and 
capabilities. This flexibility will serve to increase preparedness for 
all hazards including terrorism. The effort to enhance and build the 
national emergency response system is a national effort and Federal 
resources should continue at the current level to maintain 
effectiveness. As the Committee considers funding for the HSGP, NEMA 
urges sustained appropriations levels on a multi-year basis to allow 
for long-range planning, maintenance, and implementation.
    Our membership remains concerned regarding the proposed grant 
consolidation of the Metropolitan Medical Response System (MMRS), 
Citizen Corps Program, Driver's License Grant Program, and 
Interoperable Emergency Communications Grant Program within the 
President's request. While in theory the proposed combination may 
appear sound; in practice such consolidation remains impractical. For 
example, management of the Driver's License Grant Program occurs in 
various State agencies where consolidation would require added 
administrative burdens on State government. Furthermore, the proposed 
consolidation would bring these grant programs under the required 80-20 
funding split between State and local governments thereby further 
diluting these programs where State coordination is critical. While 
FEMA intends to reduce reporting requirements, the proposed 
consolidation would actually have the opposite effect.

                        PRE-DISASTER MITIGATION

    The Administration's request demonstrates a welcomed commitment to 
mitigation efforts through the request of $100 million for the Pre-
Disaster Mitigation Grant Program (PDM). This grant program was 
originally authorized as a program to provide every State with funding 
for mitigation efforts regardless of disaster history or current risk 
assessments, but changed in fiscal year 2002 appropriations legislation 
when PDM became a competitive grant program. The PDM program continues 
to be over-subscribed as more projects become eligible than can be 
funded in any given fiscal year at present funding levels.
    NEMA continues working closely with authorizers to obtain a multi-
year reauthorization for PDM which we would like to see achieved by the 
end of the fiscal year. In the meantime, NEMA encourages the 
Appropriations Committee to demonstrate a continued commitment to PDM 
and appropriate the requested $100 million.

                      EMERGENCY OPERATIONS CENTERS

    There remains a shortfall in the ability for States to build, 
retrofit, and upgrade primary and alternate Emergency Operations 
Centers (EOC). According to the 2010 NEMA Biennial Survey, an estimated 
$398 million in requirements exist to bridge the shortfall. The current 
EOC Grant Program is intended to improve emergency management and 
preparedness capabilities by supporting flexible, sustainable, secure, 
and interoperable EOCs with a focus on addressing identified 
deficiencies and needs. This program provides funding for construction 
or renovation of a State, local, or tribal governments' principal EOC. 
Fully capable emergency operations facilities at the State and local 
levels stand as an essential element of a comprehensive national 
emergency management system and are necessary to ensure continuity of 
operations and continuity of government in major disasters caused by 
any hazard. The continued viability of a strong and robust EOC Grant 
Program remains in the Nation's best interest.

                EMERGENCY MANAGEMENT ASSISTANCE COMPACT

    Finally, I wish to address funding for the Emergency Management 
Assistance Compact (EMAC). When States and the U.S. territories joined 
together and Congress ratified EMAC (Public Law 104-321) in 1996, it 
created a legal and procedural mechanism whereby emergency response 
resources such as Urban Search and Rescue Teams can quickly move 
throughout the country to meet disaster needs. All 50 States, the 
District of Columbia, and three territories are members of EMAC and 
have committed their emergency resources in helping neighboring States 
and territories.
    To provide a sense of EMAC's value in the context of search and 
rescue, in 2005 the year of Hurricanes Katrina, Rita, and Wilma more 
than 1,300 search and rescue personnel from 16 States searched more 
than 22,300 structures and rescued 6,582 people. EMAC staff stood ready 
to offer support recently during the tsunami threat to Hawaii as well. 
Fortunately the need for mutual aid was never required in Hawaii, but 
the knowledge it remains available as a State asset is invaluable to 
emergency response officials.
    The capabilities of EMAC remain sustained by the efforts of all the 
States and would be bolstered by direct support of EMAC. While EMAC 
currently receives FEMA grant funding, fulfilling NEMA's request for a 
$4 million line item appropriation would codify the program for use in 
future disasters. These funds provide numerous benefits directly to the 
States. As the opportunity is afforded, EMAC intends to develop, 
maintain, and exercise State and regional mutual aid capabilities, 
train State and local emergency response personnel who may be deployed 
through EMAC, support the development of specialized emergency response 
capabilities among the regions, and ensure EMAC remains a viable 
resource for the States now and in the future. In my opinion, $4 
million in Federal funds stands as a minimal investment for maintaining 
a proven national emergency response capacity that day-to-day is 
equipped, trained, and ready to provide critical disaster response 
resources and support between States. All members of EMAC continue to 
rely on this asset as a critical tool in their response and recovery 
arsenal.

                               CONCLUSION

    Again, I appreciate the opportunity to address these issues 
critical to the emergency management community. This Committee 
regularly affirms support for ensuring preparedness for our nation's 
vulnerabilities against all-hazards with additional investments in EMPG 
and EOCs. As you develop the fiscal year 2011 budget for the Department 
of Homeland Security, I encourage you to utilize our membership as a 
resource and continue efforts to build a strong and robust emergency 
management baseline in our country. Together, we will carry-on the 
initiatives so thoughtfully developed by this Committee over the years.
    I thank you for the opportunity to testify on behalf of NEMA and 
appreciate your continued partnership.
                                 ______
                                 

      Prepared Statement of National Environmental Services Center

    Chairman Byrd, Ranking Member Voinovich, and Members of the 
Subcommittee: We request an appropriation of $1.45 in fiscal year 2011 
to support West Virginia University's Resilient Communities Initiative 
(RCI). This program is being developed by the National Environmental 
Services Center (NESC) in partnership with the State of West Virginia 
Department of Military Affairs and Public Safety (DMAPS), the Harley O. 
Staggers National Transportation Center, and the Canaan Valley 
Institute to help rural communities and small cities prepare for, and 
respond effectively to, disruptive events such as man-made or natural 
disasters.
    The goal of the Resilient Communities Initiative (RCI) program is 
to improve the resilience capacity and mechanisms for mitigation in 
rural communities and small cities, beginning with the Corridor H 
region in West Virginia. Corridor H is the projected National Capitol 
Region (NCR) mass evacuation route, so communities in this region must 
be prepared for its impact in addition to the impact of potential 
natural disasters.
    Using modeling scenarios, the RCI will predict the impacts of an 
uncontrolled NCR mass evacuation on the Corridor H Region. RCI will 
help communities in this region to address their economic development 
needs and their infrastructure resiliency issues (e.g., water, energy, 
transportation) by implementing a community outreach technical 
assistance program. NESC has 30 plus years working with small and rural 
communities through outreach and technical assistance. NESC and the RCI 
partners will help communities overcome the resource disparities and 
lack of planning capabilities that have historically been obstacles to 
their becoming resilient to disasters and returning quickly to 
normalcy. The outcomes of these efforts can be transferred to 
communities in other regions of the United States having issues similar 
to those of Corridor H in West Virginia.
    Thank you for considering our request for $1.45 million in fiscal 
year 2011 to initiate the Resilient Communities Initiative at West 
Virginia University.
                                 ______
                                 

        Prepared Statement the National Treasury Employees Union

    Chairman Byrd, Ranking Member Voinovich, distinguished members of 
the Subcommittee: I would like to thank you for the opportunity to 
provide this testimony. As President of the National Treasury Employees 
Union (NTEU), I have the honor of leading a union that represents over 
22,000 Customs and Border Protection (CBP) Officers and trade 
enforcement specialists who are stationed at 327 land, sea and air 
ports of entry (POEs) across the United States. CBP employees' mission 
is to protect the Nation's borders at the ports of entry from all 
threats while facilitating legitimate travel and trade. CBP trade 
compliance personnel enforce over 400 U.S. trade and tariff laws and 
regulations in order to ensure a fair and competitive trade environment 
pursuant to existing international agreements and treaties, as well as 
stemming the flow of illegal contraband such as child pornography, 
illegal arms, weapons of mass destruction and laundered money. CBP is 
also a revenue collection agency, expecting to collect an estimated $29 
billion in Federal revenue according to fiscal year 2010 estimates.

      FUNDING FOR CBP SALARIES AND EXPENSES AT THE PORTS OF ENTRY

    On October 1, 2009, a draft report of the Southwest Border Task 
Force, created by Homeland Security Secretary Janet Napolitano and 
reported by the Associated Press, recommended the ``Federal Government 
should hire more Customs [and Border Protection] officers.'' The report 
echoes the finding of the Border-Facilitation Working Group. (The 
United States-Mexico Border Facilitation Working Group was created 
during the bilateral meeting between President George W. Bush and 
President Felipe Calderon held in Merida in March 2007.) ``In order to 
more optimally operate the various ports of entry, CBP needs to 
increase the number of CBP Officers. According to its own estimate, the 
lack of human resources only for the San Ysdiro POE is in the 
``hundreds'' and the CBP Officer need at all ports of entry located 
along the border with Mexico is in the ``thousands.'' (``CBP: 
Challenges and Opportunities'' page 1 and 2. Memo prepared by Armand 
Peschard-Sverdrup for: Mexico's Ministry of the Economy: United States-
Mexico Border Facilitation Working Group. January 2008.)
    NTEU is disappointed that the Administration's fiscal year 2011 
budget includes no increase in frontline CBP Officer or CBP Agriculture 
Specialist new hires, and instead projects a net decrease of about 500 
positions this year, despite increased appropriations. The fiscal year 
2011 budget request does include $70 million to address ``systemic 
salary shortfalls'' and $45 million for 389 CBP Officers to ``maintain 
staffing for critical positions.'' Rather than funding an actual 
increase in new hires, however, the Administration is seeking 
appropriations to maintain CBP positions funded by user fees. CBP 
states that 37 percent of its inspection workforce at the POEs is 
currently funded by user fees. This is a precarious funding stream 
because user fees decrease during times of economic recession, even 
though security needs of the Nation have not decreased.
    NTEU has become increasingly concerned as the number of positions 
funded by ``surplus'' user fee revenues has grown over time. According 
to GAO/GGD-94-165FS (page 17-18), ``through fiscal 1993, surplus 
revenues have funded 472 full-time permanent positions . . . '' Today 
the number of ``surplus-funded'' positions is over 7,000. Due to the 
recession, user fee collections are falling and CBP is facing a 
structural dilemma in its current funding of CBP inspection personnel.
    NTEU believes that all CBP employees at the POEs should be funded 
by appropriated funds through the appropriations process, not with user 
fees that by statute are to be used primarily to pay for overtime, 
premium pay, agency contributions to the Civil Service Retirement and 
Disability Fund, preclearance services and Foreign Language Awards 
Program. CBP is now facing a serious structural funding shortfall for 
CBP salaries and expenses at the POEs due to its reliance on user fees 
rather than appropriations.
    Also, in 2003, the Department of Homeland Security (DHS) created a 
new Customs and Border Protection (CBP) Officer position and announced 
the ``One Face at the Border'' initiative that purportedly unifies the 
inspection process for travelers and cargo entering the United States. 
Consolidating immigration and customs inspection functions has caused 
logistical and institutional weakness resulting in a loss of expertise 
in critical homeland security priorities. The ``One Face'' initiative 
should be ended, customs and immigration specializations should be 
reestablished within CBP, and overall CBP inspection staffing should be 
increased.

               TRADE ENFORCEMENT AND COMPLIANCE STAFFING

    When CBP was created, it was given a dual mission of safeguarding 
our nation's borders and ports as well as regulating and facilitating 
international trade. It also collects import duties and enforces U.S. 
trade laws. In 2005, CBP processed 29 million trade entries and 
collected $31.4 billion in revenue. In 2009, the estimated revenue 
collected is projected to be $29 billion--a drop of over $2 billion in 
revenue collected. Since CBP was established in March 2003, there has 
been no increase in CBP trade enforcement and compliance personnel and 
again, the fiscal year 2011 budget proposes no increase in FTEs for CBP 
trade operations personnel.
    In effect, there has been a CBP trade staffing freeze at March 2003 
levels and the maintenance of CBP's revenue function has suffered. 
Recently, in response to an Import Specialists staffing shortage, CBP 
has proposed to implement at certain ports a tariff sharing scheme. For 
example, because CBP has frozen at 984 nationwide the total number of 
Import Specialists positions, CBP is reducing by 52 positions (from 179 
to 127) the number of Import Specialists at the New York City area 
ports and shifting those positions to other ports. To address the 
resultant shortage of Import Specialists at New York area ports, CBP is 
implementing tariff sharing between the port of New York/Newark and the 
Port of JFK airport. Currently, each port (Newark and JFK) processes 
all types of entries and all types of commodities via the Harmonized 
Tariff Schedule (HTS). The reduction in trade personnel will result in 
each port being assigned only parts of the HTS. Tariff sharing will 
result in each port only processing half the commodities entering its 
port. Tariff sharing presents a number of operational problems with 
regard to trade personnel performing cargo exams on merchandise that is 
unloaded at the port of Newark, but the only commodity teams that are 
trained to process it are at JFK and, vice versa, when merchandise that 
can only be processed in Newark, is unloaded at JFK. CBP proposes that 
instead of physical examinations of the merchandise, digital photos can 
be exchanged between the ports. This is a short-sighted solution that 
shortchanges taxpayers, trade compliant importers, and the Federal 
treasury. NTEU urges the Committee to increase funding to hire 
additional trade enforcement and compliance personnel, including Import 
Specialists, at the POEs.
    In its fiscal year 2011 budget request, CBP is seeking $25 million 
for Intellectual Property Rights enforcement including $14.1 million in 
human capital investment. This request, however, includes no increase 
in FTEs to implement this new enforcement program. It is also unclear 
if the human capital investment is for the trade policy arm of CBP--the 
Office of International Trade, or the operational arm--CBP Office of 
Field Operations (OFO). NTEU urges the Committee to appropriate the 
requested $14.1 million to increase the number of CBP OFO trade 
operations personnel at the POEs.

                     CBP CAREER LADDER PAY INCREASE

    NTEU commends the Department for announcing an increase in 
journeyman pay for CBP Officers and Agriculture Specialists, initially 
scheduled to begin in March of this year. However, the funding for this 
increase was not secured and the journeyman pay increase has been 
delayed until late-September 2010. In addition, many deserving CBP 
trade and security positions were left out of this pay increase, which 
has significantly damaged morale. NTEU is relieved that full funding of 
the journeyman pay initiative is in the fiscal year 2011 budget request 
and strongly supports the inclusion of this funding in the fiscal year 
2011 DHS appropriations bill.
    NTEU also strongly supports extending this same career ladder 
increase from GS-11 to GS-12 to additional CBP positions, including CBP 
trade operations specialists and CBP Seized Property Specialists. The 
journeyman pay level for the CBP Technicians who perform important 
commercial trade and administration duties should also be increased 
from GS-7 to GS-9.

                    FOREIGN LANGUAGE AWARDS PROGRAM

    The fiscal year 2011 DHS budget proposes to eliminate $19.1 million 
to fund CBP's Foreign Language Awards Program (FLAP), a congressionally 
authorized program. Since its implementation in 1997, the Foreign 
Language Awards Program (FLAP), incorporating more than two dozen 
languages, has been instrumental in identifying and utilizing Customs 
and Border Protection (CBP) employees who are proficient in a foreign 
language. At CBP, this program has been an unqualified success, and not 
just for employees, but for the travelers who are aided by having 
someone at a port of entry who speaks their language, for the smooth 
functioning of the agency's security mission.
    Rewarding employees for using their language skills to protect our 
country, facilitate the lawful movement of people and cargo across our 
borders, and collect revenue that our government needs makes sense. 
Congress agreed that employees should be encouraged to develop their 
language skills by authorizing FLAP. Not only does it improve 
efficiency of operations, it makes the United States a more welcoming 
place when foreign travelers find CBP Officers can communicate in their 
language.
    Congress authorized a dedicated funding source to pay for FLAP--
customs user fees pursuant to title 19, section 58c (f) of the U.S. 
Code. This statute stipulates the disposition of these user fees for 
the payment of overtime, premium pay, agency contributions to the Civil 
Service Retirement and Disability Fund, preclearance services and FLAP. 
Due to the recession, however, user fee collections have fallen and on 
February 4, 2010, NTEU received notice from CBP of the immediate 
suspension of its Foreign Language Awards Program (FLAP) for CBP 
Officers and CBP Agriculture Specialists (CBPAS). NTEU strongly opposed 
the mid-year 2010 suspension of FLAP and asks the Committee to ensure 
that FLAP is fully funded in fiscal year 2011.

           FUNDING FOR DHS HUMAN RESOURCES MANAGEMENT SYSTEM

    NTEU also commends the Committee for maintaining a provision, 
section 518, in the fiscal year 2010 DHS appropriations bill that 
prohibits the expenditure of funds to apply a new DHS human resources 
management system to employees eligible for inclusion in a bargaining 
unit. Because of this funding prohibition, DHS announced that the 
agency would rescind application of this new human resources system as 
of October 2, 2008. Even though DHS has rescinded the application of 
the human resource system, and DHS has no authority to issue any new 
regulations, regulations remain in place for adverse actions, appeals, 
performance management, and pay and classification and can be 
reactivated if the funding prohibition is lifted.
    NTEU requests that identical language to Section 518, prohibiting 
the use of appropriated funds to implement any part of the regulations 
promulgated pursuant to Title 5, Chapter 97, is again included in the 
fiscal year 2011 DHS funding bill.

                               CONCLUSION

    NTEU urges the Committee to include in its fiscal year 2011 DHS 
appropriations bill:
  --funding to increase both port security and trade enforcement 
        staffing at the Ports of Entry;
  --full funding for the announced career ladder pay increases for CBP 
        Officers and CBP Agriculture Specialists;
  --funding to extend career ladder pay increases to additional CBP 
        personnel including trade operations specialists, CBP Seized 
        Property Specialists and CBP technicians;
  --full funding of CBP's Foreign Language Awards Program;
  --continuing the funding prohibition for implementation of U.S.C. 5, 
        Chapter 97--the Homeland Security Act's alternative personnel 
        management provisions and a prohibition on the continued 
        funding of the One Face at the Border initiative.
    The more than 22,000 CBP employees represented by the NTEU are 
capable and committed to the varied missions of DHS from border control 
to the facilitation of legitimate trade and travel. They are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs and our economy safe from illegal trade. 
These men and women are deserving of more resources and technology to 
perform their jobs better and more efficiently.
    Thank you for the opportunity to submit this testimony to the 
Committee on their behalf.
                                 ______
                                 

 Prepared Statement of the United States Council of the International 
                   Association of Emergency Managers

    Chairman Byrd, Ranking Member Voinovich, and distinguished members 
of the Subcommittee: Thank you for allowing the United States Council 
of the International Association of Emergency Managers the opportunity 
to provide a statement on critical budget and policy issues for the 
Federal Emergency Management Agency/Department of Homeland Security.
    I am Pam L'Heureux, the Director of Emergency Management for 
Waterboro, Maine, and the Assistant Director of Emergency Management 
for York County, Maine. I serve as the President of the United States 
Council of the International Association of Emergency Managers (IAEM-
USA). I have 20 years of emergency management experience as a local 
director. I am also the founding President of the Maine Association of 
Local Emergency Managers.
    IAEM-USA is our Nation's largest association of emergency 
management professionals, with 5,000 members including emergency 
managers at the State and local government levels, tribal nations, the 
military, colleges and universities, private business, and the 
nonprofit sector. Most of our members are city and county emergency 
managers who perform the crucial function of coordinating and 
integrating the efforts at the local level to prepare for, mitigate the 
effects of, respond to, and recover from all types of disasters 
including terrorist attacks. Our membership includes emergency managers 
from large urban areas as well as rural areas.
    We deeply appreciate the support this subcommittee has provided to 
the emergency management community over the past few years, 
particularly your support for the Emergency Management Performance 
Grant Program (EMPG) as well as strengthening the Federal Emergency 
Management Agency (FEMA). We have also appreciated your continued 
direction to the Department of Homeland Security (DHS) and FEMA to 
consult with their primary local and State stakeholders.

             EMERGENCY MANAGEMENT PERFORMANCE GRANTS (EMPG)

    The President's fiscal year 2011 budget request includes $345 
million for EMPG. We urge that EMPG funding be increased to a minimum 
of $530 million, that the program be retained as a separate account, 
and that report language be included continuing to make it clear that 
the funding is for all hazards and can be used for personnel.
    EMPG which has been called ``the backbone of the Nation's emergency 
management system'' in an Appropriations Conference Report constitutes 
the only source of direct Federal funding for State and local 
governments to provide basic emergency coordination and planning 
capabilities for all hazards including those related to homeland 
security. The program supports State and local initiatives for 
planning, training, exercise, mitigation, public education, as well as 
response and recovery coordination during actual events. All disasters 
start and end at the local level, which emphasizes the importance of 
building this capacity at the local level. Funding from EMPG frequently 
makes a difference as to whether or not a qualified person is present 
to perform these duties in a local jurisdiction.
    We appreciate that the subcommittee has recognized that EMPG is 
different from the post September 11, 2001, homeland security grants. 
Specifically, EMPG has existed, though under different names, since the 
1950s. It was created to be a 50 percent Federal cost share-50 percent 
State or local cost share program to ensure participation by State and 
local governments to build strong emergency management programs. The 
program has been under funded for decades and remains so today. The 
$530 million request is based on the documented shortfall as indicated 
by the National Emergency Management Association (NEMA) Biennial 
Report.
    The program is authorized at $815 million in Public Law 110-53, 
which also outlines the formula for apportioning EMPG funding to the 
States and Territories as follows: .25 percent of the appropriation 
will be apportioned to each of American Samoa, the Commonwealth of the 
Northern Mariana Islands, Guam, and the Virgin Islands and .75 percent 
to the States. The Administrator of FEMA will apportion the remaining 
EMPG appropriations in the ratio that the population of each State 
bears to the population of all States. In addition, there is a 
provision holding States harmless from EMPG losses until fiscal year 
2013. However we note that the language in the FEMA Congressional 
Budget Justification on page SLP-10 describes the award allocation 
methodology for EMPG as incorporating risk. This is not consistent with 
the provision of Public Law 110-53.
    The legislation creating EMPG is purposefully broad to allow 
jurisdictions to focus their attention on customizing their 
capabilities. Therefore it is important that FEMA guidance not try to 
make one size fit all but is written so as to allow maximum flexibility 
in meeting the specific capability requirements within each local 
jurisdiction.
    We would particularly and positively note the efforts of the FEMA 
Grants Office to involve key stakeholders in improving the fiscal year 
2010 EMPG guidance. We believe this should be captured as a ``best 
practice'' and incorporated in the process of generating grant guidance 
for each fiscal year in the future.
    Funding from EMPG has always been important to local government 
emergency management offices, but it is becoming even more so during 
the current economic downturn. Many of our IAEM-USA members have told 
us that their programs are facing budget reductions which will result 
in reduced staffing, reduced or eliminated training, and reduced public 
outreach. Perhaps most importantly, our members have told us that many 
emergency management programs are at the point where local elected 
officials are considering reducing their commitment from a full time 
emergency manager to a part time emergency manager, or moving the 
emergency management functions as added duties to other departments. 
This would have the effect of actually reducing emergency management 
services--and potentially preparedness--in many areas of the country--
all this at a time when disasters and emergencies threaten more people 
and property than ever before.
    Many local emergency management programs have historically provided 
significantly more than the 50 percent match that is required for their 
EMPG allocations. Simply receiving the entire 50 percent Federal match 
of their contributions would make a big difference in maintaining their 
programs.

                  EMERGENCY MANAGEMENT INSTITUTE (EMI)

    We appreciate that the Appropriations Conference Committee on the 
DHS fiscal year 2010 budget agreed to increase the funding for the 
Emergency Management Institute (EMI) to $9 million. We also appreciate 
the specific mention of EMI in both your committee and conference 
reports. However, we are disappointed that the President's budget 
request for EMI for fiscal year 2011 is $7.1 million. We request the 
Committee to support an increase in funding for EMI of $4.8 million 
over the President's request for a total of $11.9 million. We urge you 
to again specifically designate funding for EMI in your Committee 
report.
    The Emergency Management Institute (EMI) provides vitally needed 
training to State and local government emergency managers through on-
site classes and distance learning. This ``crown jewel'' of emergency 
management training and doctrine has suffered from lack of funding and 
loss of focus on the primary objectives of the Integrated Emergency 
Management System (IEMS).
    A renewed focus on continuing education for emergency managers is 
vital. The new funds we are requesting will support continued 
enhancement of the field (G) and on-campus (E) courses, the development 
of other vital programs especially an Executive Emergency Management 
Program for State, local and tribal emergency managers, and the 
conversion of 13 CORE positions to full time positions. These courses 
and the personnel to support their development and delivery are 
essential to the professional development of career emergency managers 
and to support State level training programs.
    We are extremely encouraged at the renewed focus and efforts to 
update and enhance training programs over the past year with the 
funding support of Congress. We have observed commendable progress at 
EMI in the review of existing training programs, the revision of 
outdated courses, and the focus on the current and future needs in 
emergency management training. The highest priority for fiscal year 
2011 continues to be the revision and upgrade of the EMI core 
curriculum, including the Master Trainer Program, E-Courses and G-
Courses essential to the professional development of career emergency 
managers and State level training programs.
    We also continue to support the highly successful Emergency 
Management Higher Education Program at EMI. This program, though under-
staffed and under-funded, has produced significant improvements in the 
preparation of emergency managers at the over 180 colleges and 
universities now offering emergency management academic programs. In 
addition they interact with over 700 colleges and universities. The 
program has also established and maintained the essential collaboration 
between emergency management practitioners and the academic and 
research disciplines so essential to a comprehensive approach to 
emergency management. To continue to achieve these results and 
accomplishments and further advance the Higher Education Program, it is 
necessary to augment the existing two person staff.

                     PRE-DISASTER MITIGATION (PDM)

    We support the appropriate funding for the Pre-Disaster Mitigation 
program and its reauthorization. If not reauthorized, PDM will sunset 
on September 30, 2010. Mitigation is an investment. A congressionally 
mandated independent study by the Multi-Hazard Mitigation Council, a 
council of the National Institute of Building Sciences, showed that on 
the average, a dollar spent by FEMA on hazard mitigation (actions to 
reduce disaster losses) provides the Nation about $4 in future 
benefits.
    We appreciated the Committee last year rejecting the proposal in 
the fiscal year 2010 budget request to terminate the nationwide 
competitive PDM program and allocate the funds to States on a base plus 
risk system. This year, the budget again includes language that we are 
not aware of having been discussed with the authorizers, the 
appropriators, or stakeholders in advance of the release of the budget.
    We are in need of additional information to understand the meaning 
of the following language from page PDM-1 of the FEMA Congressional 
Budget Justification: ``Through a partnership with the Department of 
Housing and Urban Development (HUD) Sustainable Communities initiative, 
the goal is to support strategic local approaches to sustainable 
development by coupling hazard mitigation with related community 
development goals and activities that reduce risks while protecting 
life, property, and the environment.'' When we have more detail about 
what is intended by this language, we will be happy to provide 
comments.
    We have appreciated the actions of the House and Senate 
Appropriations Committees to extend this program. If an authorization 
bill is not completed this session, we would appreciate your 
willingness to again extend this important program.

                    PRINCIPAL FEDERAL OFFICIAL (PFO)

    We would urge the subcommittee to include bill language prohibiting 
the funding of any position designated as a Principal Federal Official 
for a Stafford Act event, or at the very least include the statutory 
language agreed to by the Conferees in Section 522 of the General 
Provisions of the fiscal year 2010 DHS Appropriations Act. This 
language prohibits funding the PFO position except when certain 
conditions are met. The fiscal year 2011 budget request deletes General 
Provision Section 522 and includes the following explanation in the 
Congressional Budget Justification: ``While the Department appreciates 
the modification of this prevision from previous year's appropriation 
act, this provision is still overly restrictive and creates an 
additional administrative burden on the Department, during a Stafford 
Act event.''
    IAEM has consistently opposed the appointment of PFOs. It leads to 
confusion. Instead, our members want the Federal Coordinating Officer 
(FCO) to have unambiguous authority to direct and manage the Federal 
response in the field. It is absolutely critical for State and local 
officials to have one person empowered to make decisions and coordinate 
the Federal response in support of the State.

                FEMA OFFICE OF INTERGOVERNMENTAL AFFAIRS

    We urge the subcommittee to increase the staffing for the FEMA 
Headquarters Office of Intergovernmental Affairs. This office has the 
vital responsibility to provide information to its State and local 
partners, keep the FEMA divisions informed of State and local needs, 
seek input on policies, and solve problems at an early stage. Currently 
this office has a total Permanent Full Time (PFT) allocation at 
headquarters of seven and currently there are three vacancies. A 
minimum of at least 10 in FEMA headquarters are needed to perform these 
critical functions.

           FISCAL YEAR 2010 DISASTER RELIEF FUND SUPPLEMENTAL

    We strongly support H.R. 4899 which includes the $5.1 billion in 
supplemental funds requested by the President for the Disaster Relief 
Fund. At the time of this statement, H.R. 4899 had passed the House and 
was pending in the Senate.
    On February 4, 2010, FEMA announced a policy of allocating disaster 
relief funds on an ``immediate needs'' basis (assistance to 
individuals, emergency protective measures, and debris removal). 
Funding for repair and replacement of facilities and mitigation unless 
already obligated to the State will be delayed until the supplemental 
is available.

                   REVIEW OF POLICIES AND INITIATIVES

    We applaud the efforts of FEMA leadership to review past policies 
and initiatives. We particularly applaud that the Cost-to-Capability 
and the Integrated Planning System (IPS) are under review.
    In particular, we were pleased that the Administration recognized 
the flawed nature of Cost-to-Capability and is opting to take the time 
to develop a more effective method of determining this information. We 
recognize the need to measure what is being achieved with the funding 
that Congress has provided; however, we simply do not want the 
instrument to be so cumbersome that the information obtained is not 
worth the time to generate it. Creating a system to count ``widgets'' 
is easy--creating a system to determine if we're better prepared is 
not. We look forward to working with FEMA as they work to construct a 
valuable measurement tool.
    Our objection to the Integrated Planning System as proposed by the 
last Administration was that it is scenario-based--which is not the way 
State and local government emergency managers plan. We plan for the 
functions and capabilities that are common to all disasters. The IPS, 
originally proposed by the DHS Office of Operations Coordination, was 
heavily based on the Department of Defense (DOD) Joint Operations 
Planning and Execution (JOPES) model. This may be a great model of 
planning if you are the military and funded and equipped with the 
resources of the military. State and local governments do not have 
those resources.

                        STAKEHOLDER INVOLVEMENT

    We have appreciated the subcommittee's continued focus on the need 
for key stakeholder involvement and we are happy to report to you today 
that we have had increased opportunities for local emergency managers 
to have substantive and timely input into policies and initiatives. It 
is extremely helpful to have input at an early stage rather than just 
be briefed on decisions.

                           STRENGTHENING FEMA

    IAEM-USA continues to strongly support the full implementation of 
Post-Katrina Emergency Management Reform Act (PKEMRA), Public Law 109-
205, and we urge the subcommittee to support the efforts of 
Administrator Craig Fugate, Deputy Administrator Richard Serino, Deputy 
Administrator, Protection & National Preparedness Tim Manning, and the 
other new leaders of FEMA by insisting on its implementation. The 
momentum returning FEMA to long-established principles of emergency 
management--all hazards, integrated, all phases (preparedness, 
mitigation, response, and recovery)--must continue.
    The FEMA Administrator should be clearly responsible for the 
coordination of the Federal response to disasters and have the maximum 
amount of access to the White House as the legislation clearly 
requires. We are pleased that the Administration is revising Homeland 
Security Presidential Decision Directive-8 and we certainly hope it 
will be consistent with PKEMRA.
    We remain concerned that the role of the Department of Homeland 
Security Office of Operations Coordination, which was created shortly 
after the enactment of PKEMRA, is unclear. It appears to be assigned 
functions that duplicate or compete with those of FEMA. These functions 
include, but are not limited to coordinating activities related to 
incident management, the national planning scenarios, the Integrated 
Planning System, and duplicating some of the role of the response 
function in FEMA. It is unclear what the roles are of the National 
Operations Center and the National Response Coordination Center in 
managing the coordination of the Federal Response in preparation for 
responding to an event. Functions clearly and unambiguously assigned to 
FEMA by law should not be moved out or duplicated on the basis that the 
Administrator of FEMA is the lead ``only'' in Emergency Management, not 
incident management.
    As the new administration is reviewing policies and HSPDs, it will 
be important to examine the following provisions of PKEMRA:
  --Section 611 (12) (B) is of particular importance. This amended the 
        Homeland Security Act of 2002 by ``striking the matter 
        preceding paragraph (1)'' which contained the language, ``the 
        Secretary acting through . . . '' and inserted instead the 
        following language. ``In General--The Administrator shall 
        provide Federal Leadership necessary to prepare for, protect 
        against, respond to, recover from or mitigate against a natural 
        disaster, act of terrorism and other man-made disaster 
        including . . . managing such response.'' ``Congress acted 
        intentionally to transfer these responsibilities from the 
        Secretary to the Administrator.''
  --Section 503 Federal Emergency Management Agency
    --(b)(2)Specific Activities--In support of the primary mission of 
            the Agency, the Administrator--
        --(A) Lead the Nation's efforts to prepare for, protect 
            against, respond to, recover from, and mitigate against the 
            risk of natural disasters, acts of terrorism, and other 
            man-made disasters, including catastrophic accidents.
        --(H) develop and coordinate the implementation of a risk-
            based, all hazards strategy for preparedness that builds on 
            those common capabilities necessary to respond to natural 
            disasters, acts of terrorism, and other man-made disasters 
            while also building the unique capabilities necessary to 
            respond to specific types of incidents that pose the 
            greatest risk to our Nation.
  --Section 503 (c)(4)(A) In General--The Administrator is the 
        principal advisor to the President, the Homeland Security 
        Council, and the Secretary for all matters relating to 
        emergency management in the United States.
  --Sec. 503(c)(5) Cabinet Status--
    --(A) In General--The President may designate the Administrator to 
            serve as a member of the Cabinet in the event of natural 
            disasters, acts of terrorism, or other man-made disasters.
    --(B) Retention of Authority--Nothing in the paragraph shall be 
            construed as affecting the authority of the Secretary under 
            this Act.
    We believe that in the last Administration DHS frequently and 
mistakenly quoted Section 502(c)(5)(B) regarding the authority of the 
Secretary and the Administrator as being applicable across the entire 
act when, in fact, it is limited in scope only to paragraph (5).
    We strongly request the committee to provide continual oversight of 
DHS on these matters to ensure they are following the clear and direct 
law on these issues.

                               CONCLUSION

    In conclusion, we urge the subcommittee to continue to build 
emergency management capacity by increasing EMPG to $530 million. We 
urge increasing funding for the Emergency Management Institute to $11.9 
million. We urge elimination of the PFO, or in the absence of that 
continuing the restrictions on its use. We urge the subcommittee to 
continue its efforts to strengthen FEMA and to insist on the full 
implementation of the provisions of PKEMRA.

</pre></body></html>
